STATEMENT OF SERVICE
Case No.

19-123

Case Title:

Sharonell Fulton v. City of Philadelphia

It is hereby certified that all parties required to be served have been
served with a copy of the RESPONDENT’S JOINT MOTION FOR DIVIDED
ARGUMENT, via e-mail, on this 19TH day of August, 2020. Petitioner’s
counsel consented to electronic service.
Name, addresses and email addresses of individual served:
Mark Leonard Rienzi
Counsel for Petitioner
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

__/s/ Leslie Cooper
Leslie Cooper
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
212.549-2500
lcooper@aclu.org

1

